<html>
<title> - FEDERAL REAL PROPERTY REFORM: HOW CUTTING RED TAPE AND BETTER MANAGEMENT COULD ACHIEVE BILLIONS IN SAVINGS</title>
<body><pre>[Senate Hearing 114-440]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-440
 
                     FEDERAL REAL PROPERTY REFORM:
 HOW CUTTING RED TAPE AND BETTER MANAGEMENT COULD ACHIEVE BILLIONS IN 
                                SAVINGS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JUNE 16, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        
        
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 

                         

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 97-356 PDF                WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
  
  
  
  
  
  
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS       
        
        

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
                       Courtney J. Allen, Counsel
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Troy H. Cribb, Minority Chief Counsel for Governmental Affairs
        Deirdre G. Armstrong, Minority Professional Staff Member
                Brian F. Papp, Minority Legislative Aide
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Lankford.............................................    15
    Senator Heitkamp.............................................    18
    Senator Ayotte...............................................    21
    Senator Portman..............................................    23
Prepared statements:
    Senator Johnson..............................................    29
    Senator Carper...............................................    30

                               WITNESSES
                         Tuesday, June 16, 2015

Hon. David Mader, Controller, Office of Management and Budget....     4
Norman Dong, Commissioner, Public Buildings Service, U.S. General 
  Services Administration........................................     6
Dave Wise, Director, Physical Infrastructure Issues, U.S. 
  Government Accountability Office...............................     8

                     Alphabetical List of Witnesses

Dong, Norman:
    Testimony....................................................     6
    Prepared statement...........................................    35
Mader, Hon. David:
    Testimony....................................................     4
    Prepared statement...........................................    31
Wise, Dave:
    Testimony....................................................     8
    Prepared statement...........................................    41

                                APPENDIX

Response to post-hearing questions submitted for the Record
    Mr. Mader....................................................    52
    Mr. Dong.....................................................    59
    Mr. Wise.....................................................    64


                     FEDERAL REAL PROPERTY REFORM:



                    HOW CUTTING RED TAPE AND BETTER



              MANAGEMENT COULD ACHIEVE BILLIONS IN SAVING

                              ----------                              


                         TUESDAY, JUNE 16, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Ayotte, 
Ernst, Carper, McCaskill, Heitkamp, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to welcome our witnesses and thank them for the 
testimony they have prepared. Pretty interesting reading. I 
also want to ask unanimous consent, while my Ranking Member's 
back is turned, to enter my written statement into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Chairman Johnson appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    Let me just start extemporaneously talking about this 
problem, because this is a hearing that I have been looking 
forward to. I know our Ranking Member, even though he is not 
paying attention to me, has done an awful lot of work on this 
subject.
    But, coming from the private sector, I look at the 
management of property, the ability to dispose of it in a cost-
effective manner and one that is beneficial to government, this 
ought to be simple. This should not be this difficult. I know 
in my business in Oshkosh, Wisconsin, both as a stand-alone 
business and then part of a larger corporation, there was just 
a pretty streamlined process. When I was part of a large 
corporation, we had a budgeting process. Certainly if you 
wanted to do a capital expenditure or a capital disposal, you 
would propose that to management, people agree, and you get it 
done. You get some appraisals, you find out basically what the 
property is worth, and you sell it.
    Even if you had another division that may have been able to 
use it, you kind of put them on notice, you sell the piece of 
property, maybe we could have used it, but, well, then they can 
buy another piece of property. This should not be this 
difficult.
    But being briefed for this hearing, it seems like there are 
two basic problems. First of all, we do not have the 
information. 275,000 buildings are owned by the Federal 
Government, but we really do not have an idea what is the full 
value of that, how many are being fully utilized, how many are 
being underutilized. So you actually need information to solve 
a problem. There is the first problem.
    And then with the best of intentions, I think Congress has 
probably created a number of hurdles, a lot of hoops that the 
agencies have to go through to dispose of any piece of 
property. Again, making sure that if there is a piece of 
property that could potentially be used for a homeless shelter 
or in some other area of government, well, that sets up a 
process that makes it extremely difficult and certainly 
lengthens out the process for disposing of property.
    So, again, the purpose of this hearing, as I was talking to 
the witnesses beforehand, is let us make sure that we 
understand this problem. Let us admit we have it. And let us 
agree on some pretty simple solutions here in terms of let us 
get the information we need and let us cut through the red 
tape. Let us reduce those hoops. Let us make this a very 
streamlined process so we can manage property for the benefit 
of the American taxpayer.
    So, again, I am looking forward to it. Let us come up with 
solutions here, and with that, I will turn it over to our 
Ranking Member, who really has worked pretty tirelessly on this 
issue, and hopefully we can succeed pretty quick.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I am tired. [Laughter.]
    But not tired of this issue. In fact, I am always motivated 
and excited about this issue. We are joined by our new 
colleague from Oklahoma. I worked with an old colleague from 
Oklahoma almost from the day he got here, oh, about 10 years 
ago or so. And we went up to Chicago, and we went to visit a 
post office building there that had not been used for years. 
And we were spending money for the utilities, we were spending 
money for security, we were spending money for maintenance, but 
not using it, and had not used it for a long time and probably 
were not going to use it for a while. So Tom Coburn and I 
literally started working on real property management coming 
out of that hearing, figuring out what we in the Congress could 
do and what the Executive Branch could do. We worked with the 
Bush Administration, and we have now worked with the Obama 
Administration for over 6 years.
    Every now and then when we hold hearings in this Committee, 
Mr. Chairman and colleagues, I will say to the witnesses from 
the Federal Government agencies, I will say: ``What can we do 
to help in a particular way to save money in what you are 
doing?'' And one of the things they always say is, ``Keep doing 
oversight.'' And we have done oversight out the wazoo with 
respect to real property management. We have had some very 
tough, difficult meetings in 513 Hart, in my office, over the 
years with the Office of Management and Budget (OMB), with the 
General Services Administration (GSA), with the Housing and 
Urban Development (HUD), with others, and trying to figure out 
what more they can be doing working together collaborating, and 
what we can do to help them.
    We do not make their jobs easy. You have alluded to that. 
And one of the things we will be getting into today with Mr. 
Mader, Mr. Dong, and Mr. Wise is--these guys have heard me say 
this before--you can do it, we can help--just like at Home 
Depot. And part of what I want us to walk away from here is how 
can we help and what are we doing that is helpful today.
    The other thing is I think some of the folks around this 
hearing, including the Chairman, have really good, practical 
world experience on these issues, and not on a scale or the 
magnitude of what we deal with here at the Federal Government, 
but actually it scales up pretty good, and I think that given 
the talent we have here on our staffs, the very good work that 
is going on among the agencies and the Administration, there 
are collaborative efforts. I am more encouraged on the real 
property, the use of real property than I have been in some 
time.
    One of the things I will say is--and this will come out in 
the hearing--we use a budget process, as you all know, that if 
agencies lease space, it scores better than if they buy or 
build.
    I will say that again. If agencies lease space, it scores 
better with the Congressional Budget Office (CBO) than if they 
buy or build. But in practical terms, over 30 years, we waste a 
lot of money. And then the phone rings and----
    Chairman Johnson. Sorry.
    Senator Carper. That tells me my time has expired. 
[Laughter.]
    But one of the things that I hope we will talk a little bit 
about is St. Elizabeths, the St. Elizabeths campus and the 
Department of Homeland Security (DHS). Every past Secretary of 
Homeland Security has said, ``Do this, actually make this 
investment, and over time you will save not just hundreds of 
millions of dollars; you will save billions of dollars for 
taxpayers over 30 years.'' And some of us will still be here 30 
years from now--I look to my left, Heidi, and I do not know 
that I will be here.
    At any rate, I think we are sort of reaching a good point 
here on this issue where some good stuff is happening. We teed 
it up, and I will close with this: I was talking with Mr. Mader 
earlier, colleagues, and he told me that one of his goals is a 
year or so from now he wants to meet with Gene Dodaro, who 
heads up the Government Accountability Office (GAO), and 
basically for Gene to say at the beginning of the next 
Congress, real property management is off the high-risk list. 
And it has been there forever, and that is a great goal to 
have. And you can do it, and we can help. We are going to have 
a good hearing.
    Thank you.
    Chairman Johnson. Thank you, Senator Carper. We have had a 
lot of hearings on some real problems, things that are so 
complex. My definition of a problem is something that does not 
have an easy solution. This should not be a problem because 
these are some pretty easy solutions. So, again, I am really 
looking forward to the testimony.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all rise and raise your right hand. 
Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Mader. I do.
    Mr. Dong. I do.
    Mr. Wise. I do.
    Chairman Johnson. Thank you. Please be seated.
    Our first witness is David Mader. Mr. Mader is the 
Controller at the Office of Management and Budget. Prior to his 
confirmation, Mr. Mader was senior vice president for strategy 
and organization at Booz Allen Hamilton. From 1971 to 2003, Mr. 
Mader held various positions at the Internal Revenue Service 
(IRS), including Acting Deputy Commissioner, Acting Deputy 
Commissioner for Modernization and the Chief Information 
Officer (CIO), Assistant Deputy Commissioner, and Chief for 
Management and Finance. Mr. Mader.

 TESTIMONY OF THE HONORABLE DAVID MADER,\1\ CONTROLLER, OFFICE 
                    OF MANAGEMENT AND BUDGET

    Mr. Mader. Thank you, Chairman Johnson, Ranking Member 
Carper, and Members of the Committee, for the invitation today 
to testify and to update the Committee on the changes that the 
Administration is implementing to improve the government's real 
property management capability and the overall efficiency of 
the Federal real property portfolio.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mader appears in the Appendix on 
page 31.
---------------------------------------------------------------------------
    I would like to update you on the status of the initiatives 
that I mentioned when I testified last July in front of the 
House Subcommittee on Government Operations regarding the 
Administration's effort to improve the management of the 
government's real property portfolio. Over the last 11 months, 
we have continued to implement actions that will improve and 
transform the way the Federal Government manages its real 
property portfolio.
    Our plan includes four key components.
    First, develop and implement a strategic framework that 
will guide agencies' management of their real property over the 
next 5 years.
    Second, develop and implement governmentwide performance 
metrics to identify efficiency opportunities, and to assess the 
performance of individual agencies.
    Third is to develop a new management tool within the 
current Federal Real Property Profile (FRPP) to enhance the 
utility of the data.
    Fourth, modifications to existing statutes to increase the 
pace and the number of property disposals which will decrease 
the amount of resources expended on maintaining excess and 
underutilized properties.
    The President's 2016 budget invests in our federally owned 
facilities to ensure that mission execution is optimized at the 
lowest possible cost, including $2.4 billion over the 2015 
enacted level in support of critical construction and 
renovation projects as well as opportunities for consolidation 
in the Federal Buildings inventory.
    We have completed or made significant progress on three of 
the four components over the last 8 months. We issued the first 
time ever a National Real Property Strategy in March 2015 which 
builds on past actions and results to define the strategic 
framework agencies' will use to manage their portfolios. The 
framework will freeze the growth in the inventory, measure 
performance and identify opportunities to improve efficiency 
and data quality, and ultimately reduce the size of the 
inventory by prioritizing actions to consolidate, co-locate, 
and dispose of properties.
    To implement this strategy, we have issued a new policy 
that provides a set of agency-specific performance metrics. The 
``Reduce the Footprint'' policy, also issued in March 2015, 
requires agencies to implement a 5-year plan to reduce their 
real property portfolios. The prioritization of disposals of 
unneeded and inefficient properties by requiring agencies to 
set annual square foot disposal targets for all buildings is a 
real first.
    It also requires agencies to issue office space design 
standards by March of next year, and this will be used on a 
forward-going basis to ensure that we continue to maintain the 
reduction in real property inventory.
    The last component of our plan, potential modifications to 
existing statutes, could increase the pace and the number of 
properties disposed of through sale, demolition, and public 
benefit conveyance. These modifications could include some 
sales proceeds reinvested in additional disposals, expanded 
authority for GSA to support agencies' work to prepare 
properties for the declaration of ``excess,'' and relief from 
some of the aspects of the public benefit conveyance process.
    All of the components of our vision, except, of course, 
potential modifications to statute, will be implemented by the 
end of this fiscal year (FY) 2015. We believe these actions 
will significantly improve the management of real property and 
deliver efficiency gains over the next 5 years. The real 
property program has achieved results in 2014, and we will 
continue to build on this achievement. We reduced the baseline 
by 11.2 million square feet in 2014, and this result built on a 
10.2 million square feet reduction in fiscal year 2013. So in 2 
years, we reduced 21 million square feet of office and 
warehouse space.
    It is important to note that in order for the government to 
reduce our footprint, we require funding to make the necessary 
reconfigurations and relocations that result in out-year cost 
avoidance. We have made progress; however, significant 
opportunities remain.
    One significant challenge that the General Services 
Administration faces is with the Federal Building Fund. The GSA 
is leading the Federal effort to both invest in Federal 
facilities and consolidate space to reduce costs and to 
optimize efficiency, avoiding tens of millions of dollars in 
annual lease costs. Recent funding levels of the GSA and the 
other Federal landholding agencies have led to both facility 
deterioration as well as missed opportunities to consolidate 
and reduce operating costs. As I have previously stated in many 
meetings and testimony last year in the House, one must invest 
to save.
    We look forward to working with the Committee on 
legislation that will enable us to make even greater progress 
improving the efficiency of the governmentwide portfolio and 
accelerating the pace of property disposals over the next 5 
years.
    Thank you for inviting me to testify today, and I look 
forward to answering your questions.
    Chairman Johnson. Thank you, Mr. Mader.
    Our next witness is Norman Dong. Mr. Dong is Commissioner 
of the Public Buildings Service under the General Services 
Administration. In this role, Commissioner Dong manages the 
management, design, construction, leasing, and disposal of 
government-owned and leased spaces nationwide. Prior to joining 
GSA, Commissioner was Acting Controller at the Office of 
Management and Budget where he coordinated governmentwide 
improvements in all areas of financial management. Mr. Dong.

  TESTIMONY OF NORMAN DONG,\1\ COMMISSIONER, PUBLIC BUILDINGS 
         SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Dong. Good morning, Chairman Johnson, Ranking Member 
Carper, and Members of this Committee. Thank you for inviting 
me to this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dong appears in the Appendix on 
page 35.
---------------------------------------------------------------------------
    Our mission at GSA is to deliver the best value in real 
estate, acquisition, and technology to the Federal Government. 
And within the Public Buildings Service, our goal is to support 
agency real property requirements, but in the most fiscally 
responsible way.
    We recognize that dollars spent on real estate come at the 
expense of more mission-critical activities, and as agencies 
spend less on rent, they can devote more of their limited 
dollars to support mission requirements.
    To do this, we are: consolidating space and improving space 
utilization; taking a more disciplined approach to leasing; 
disposing of unneeded assets; leveraging our exchange and 
outleasing authorities; and supporting OMB in the 
governmentwide effort not just to freeze but to reduce the 
Federal footprint.
    On the issue of space utilization, we are working with 
Federal agencies to identify opportunities to co-locate, 
consolidate, and reduce the Federal real estate footprint. 
Since fiscal year 2014, Congress has provided $70 million each 
year to support agency consolidation projects. Many of these 
projects reflect agencies moving out of expensive leases into 
federally owned space.
    In Minneapolis, for example, we are partnering with HUD to 
move them out of leased space into the Federal building in that 
city. Through this process, HUD will reduce its footprint by 
over 9,000 square feet, which will save the government more 
than $700,000 each year just in that one transaction.
    Today we are executing dozens of projects that will reduce 
the Federal footprint by over 800,000 square feet and reduce 
annual leasing costs by about $50 million. And given 
significant agency interest in this program, our budget request 
for fiscal year 2016 will help us further reduce our square 
footage and increase our annual cost savings.
    As we maximize the use of federally owned space, we will 
always see a significant amount of leasing activity. So our job 
at GSA is to make sure that we are not just reducing the 
Federal footprint but we are also reducing the cost of that 
footprint. And by embracing greater competition in our leasing 
transactions, we can capitalize on favorable rates that we are 
still seeing in many markets.
    In order to get better leasing rates for the government, 
GSA is working with our Federal tenants to simplify their 
requirements and broaden delineated areas to increase 
competition; to extend lease terms to 10 years or longer 
wherever possible because longer terms usually mean lower 
rates; and to start the planning process at least 36 months 
before lease expiration to allow for competitive procurements 
and to avoid costly holdovers and extensions.
    Whenever we are in holdover or extension, the government is 
paying about 20 percent more than it should, on average. In 
recent years, we have actually seen some progress to reduce the 
number of holdovers and extensions, and by the end of fiscal 
year 2014, we had 97 holdovers out of more than 8,700 leases, 
which was the lowest figure since 2007.
    On the issue of underutilized property, we are improving 
our efforts to identify assets that we no longer need and to 
move these properties off our books. In fiscal year 2014, GSA 
disposed of 342 properties governmentwide, which was about a 
61-percent increase from the prior year. And this year, we are 
on track to meet our goal of disposing of 3 million square feet 
of excess property.
    We are seeing some great examples of how agencies are being 
more aggressive to move excess property off the Federal rolls.
    In Seattle, for example, GSA recently worked with the 
Federal Reserve to sell their vacant building in that city. 
With more than eight bidders competing, we ultimately sold that 
building for $16 million through an online auction. So while we 
are seeing some progress, we also recognize that we can and 
must do more to move excess properties off our books.
    We are also leveraging our exchange and outleasing 
authorities to tap into the value of those assets that no 
longer serve a Federal purpose but still represent significant 
value to the private sector. In Southwest, D.C., GSA is 
leveraging the value of our regional office building and the 
Cotton Annex in the Federal Triangle Complex. Through this 
exchange project, GSA is seeking construction and development 
services to modernize the remainder of our headquarters 
facility and to further the DHS consolidation at St. 
Elizabeths.
    Another example is our long-term lease of the Old Post 
Office Building to the Trump organization, which is 
transforming it into a luxury hotel. This private investment of 
$200 million will preserve that historic building, serve the 
local community, and generate lease revenues for the 
government.
    I would like to close by discussing how GSA is supporting 
the Administration's National Strategy for Real Estate. This 
summer, GSA will be working with OMB to review agency plans to 
reduce the footprint, and through this effort, we will 
buildupon our work in fiscal year 2015 and develop a robust 
pipeline of potential projects for disposal, exchange, and 
outlease in the next fiscal year.
    We have made significant progress in managing Federal real 
property, but I think we all recognize that there is much more 
work that must be done. I look forward to working with this 
Committee to improve the Federal Government's management of its 
real property.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Chairman Johnson. Thank you, Mr. Dong.
    Our next witness is David Wise. With a name like that, I am 
expecting some pretty good testimony. Mr. Wise is the Director 
of Physical Infrastructure Issues at the Government 
Accountability Office, where he works on issues of Federal real 
property and surface transportation. Mr. Wise first worked at 
GAO from 1981 to 1989 and returned in 2007 after serving as a 
political adviser to a U.S. Army Civil Affairs Unit in 
Afghanistan, and with the State Department as a Foreign Service 
Officer and in the Office of Inspector General (OIG). Mr. Wise.

 TESTIMONY OF DAVE WISE,\1\ DIRECTOR, PHYSICAL INFRASTRUCTURE 
         ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wise. Chairman Johnson, Ranking Member Carper, and 
Members of the Committee, thank you for the opportunity to 
discuss our work on how the Federal Government's real property 
management practices could be improved. The government's real 
property holdings are vast and diverse, costing billions of 
dollars annually to support. The portfolio comprises hundreds 
of thousands of buildings, such as office buildings, storage 
warehouses, courthouses, hospitals, and laboratories--and a 
comparable number of permanent structures--such as roads, dams, 
and parking garages.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wise appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    My statement today focuses on improvements and challenges 
in Federal real property management and executive and 
legislative steps that could help the government address these 
challenges.
    Since GAO placed Federal real property management on the 
high-risk list in 2003, the government has given the issue 
high-level attention, including establishing the Federal Real 
Property Council (FRPC) and the Federal Real Property Profile, 
which is the government's real property database; implementing 
the 2011 Freeze the Footprint policy aimed at keeping Federal 
domestic office and warehouse inventory at a baseline level 
established using FRPP data; issuing this past March its 2015-
20 National Strategy for the Efficient Use of Real Property; 
the strategy includes freezing growth in the inventory, 
measuring performance, and reducing growth through 
consolidation, collocation, and disposal.
    Notwithstanding these positive steps, the government 
continues to face challenges in managing its real property 
portfolio, including maintaining more real property than it 
needs; relying on leasing when ownership would be more cost-
effective in the long run; and making real property management 
decisions using unreliable data.
    Retaining unneeded real property results in significant 
costs to the Federal Government. In July 2014, the 
Administration released the first-year results of the Freeze 
the Footprint policy, indicating that it reduced the Federal 
Government's office and warehouse space by about 10 million 
square feet between fiscal years 2012 and 2013, actually 
exceeding its goals.
    However, we found that the data behind these results were 
somewhat unreliable, resulting in a potential overstatement of 
the progress made. For example, some properties credited as 
having been disposed of by agencies were actually returned to 
GSA and remain part of the Federal footprint.
    The government continues to rely heavily on leasing where 
ownership would be more cost-effective in the long run. In our 
February 2015 High-Risk update, we reported that the government 
has taken steps to consolidate high-value leases and smaller 
leases as they expire. However, we noted that GSA then lacked 
an action plan and transparent data to demonstrate progress in 
actually achieving the goal.
    Consistent and accurate data are critical to effectively 
manage real property. Despite leadership commitment to improve 
FRPP, the government continues to face challenges with its 
accuracy and consistency. In 2012, we reported that FRPP data 
did not consistently describe excess and underutilized Federal 
real property accurately. While the government has taken some 
steps to improve FRPP, additional improvements are needed, 
including better accuracy of utilization, space reductions as 
reported by agencies, maintenance needs, and the tracking of 
structures.
    Three key steps could assist the way forward: implementing 
the National Strategy, which I mentioned earlier; implementing 
key GAO recommendations; and considering legislation to assist 
the disposal process and mitigate competing stakeholder 
interests.
    In recent years, we have made a number of recommendations 
to GSA that, if implemented, should improve real property 
management and reduce costs. Some priority recommendations 
include:
    In June 2012, we recommended steps GSA could take to make 
the FRPP database a better decisionmaking tool. GSA agreed and 
is implementing measures aimed at improving its reliability and 
usefulness, and this effort is ongoing.
    In July 2012, we recommended that GSA development a 5-year 
capital plan to help ensure that long-term goals were fully 
considered when making decisions to fund capital projects. GSA 
also agreed but conveyed that the challenging budget 
environment in recent years has limited the agency's ability to 
develop such a plan.
    In the September 2013 report, we recommended that GSA 
develop and use clear criteria to rank and prioritize potential 
long-term ownership solutions for current high-value leases. 
GSA also agreed and may be able to look to the newly issued 
Real Property Strategy as a potential tool for implementation.
    In November 2014, we recommended that GSA develop a clear 
strategy to effectively manage the government's vast warehouse 
portfolio. GSA agreed and is developing appropriate guidance. 
We will continue to monitor the implementation of these and 
other real property recommendations.
    Since 2011, there have been several real property reform 
bills introduced in the Congress. None has yet been enacted. 
One of the bill's, the Civilian Property Realignment Act 
(CPRA), provided a framework for disposing of and consolidating 
civilian real property. Another bill, the Federal Real Property 
Asset Management Reform Act, codified the FRPC and modified 
provisions for homeless assistance. In 2011, we testified that 
CPRA could improve real property management.
    We also made some legislative suggestions to Congress as 
part of our September 2014 report on implementation of Title 5 
of the McKinney-Vento Homeless Assistance Act. We found that 
since its inception in 1987, the Homeless Assistance Program 
has transferred 122 properties out of the 40,000 screened to 
service providers. For various reasons, many screened 
properties were unsuitable. We suggest that Congress revisit 
the types of properties that must be screened. Recently, a 
submitted amendment to the fiscal year 2016 National Defense 
Authorization Act would exempt some excess, underutilized, or 
unutilized U.S. Army non-mobile real property from Title 5 that 
is evaluated as unsuitable for potential homeless in order to 
expedite the disposal process.
    Chairman Johnson, Ranking Member Carper, and Members of the 
Committee, this completes my statement. I would be pleased to 
respond to any questions that you may have.
    Chairman Johnson. Thank you, Mr. Wise.
    Mr. Dong, I would like to start with you, just kind of some 
basic metrics. In your testimony, you said that GSA has 377 
million square feet of property basically under your 
management. Is that all of civilian property outside the 
Defense Department (DOD)? Or do you have a figure in terms of 
what the government completely owns?
    Mr. Dong. That is just a portion of the larger holdings 
within the Federal Government. I think it is probably about 10 
percent of the total.
    Chairman Johnson. So you are saying the number of square 
feet held by the Federal Government is over 3 billion square 
feet?
    Mr. Dong. I think Mr. Mader would have the exact figure.
    Chairman Johnson. Mr. Mader, do you have that?
    Mr. Mader. Yes, Mr. Chairman, and this is civilian and 
defense. There is a total of 254,000 owned buildings; 21,000 
leased buildings; and that is 2.5 billion square feet of space 
for owned buildings, and 295 million square feet for leased. So 
roughly, 2.7, almost 2.8 billion square feet of space.
    And that is all facilities.
    Chairman Johnson. So when you are talking about disposing 
of 21 million square feet versus 2,500 million square feet, we 
are talking about just an infinitesimal amount of disposals, 
correct?
    Mr. Mader. We are talking about a small number, and I think 
we need to go back to Mr. Wise's testimony. What is included in 
that, for an example, let us say if you were in the Department 
of Interior, National Park Service (NPS), if you had a facility 
that was sitting in a national park that was no longer useful 
and was declared excess, that would be included in that 
inventory. Obviously, other than demolishing that structure, 
there is not any other use for it. So it includes----
    Chairman Johnson. Again, but that structure is costing 
money in terms of maintenance and repair, which is part of the 
problem.
    Mr. Mader. Absolutely, and that is why in the case of 
Interior they actually have an aggressive program.
    Chairman Johnson. So out of the 2.5 billion square feet 
within this profile, or wherever the information would be 
captured, the Federal Real Property Profile or someplace else, 
in my mind there would probably be three categories that I 
would want to see. I do not know the way you categorize it, 
but, fully utilized properties, underutilized properties, and 
then non-utilized or excess properties. Is that how we 
categorize these things?
    Mr. Mader. Yes, Mr. Chairman, we actually put it in those 
three buckets. It is underutilized, unutilized, and then pure 
excess.
    Chairman Johnson. Do you have the breakdown then of the 2.5 
billion square feet, how much is fully utilized for that?
    Mr. Mader. I have it by building, not by square foot.
    Chairman Johnson. Well, I will take it by building. I would 
say by square foot it would probably be----
    Mr. Mader. We can provide that to you later.
    Chairman Johnson. OK, great.
    What do you have in terms of buildings then?
    Mr. Mader. So for buildings, we have 1,615 underutilized, 
3,360 unutilized, and 4,465 pure excess, already declared 
excess.
    Chairman Johnson. That does not total up to the amount 
here. You were saying you have 275,000 buildings in total.
    Mr. Mader. Yes, sir.
    Chairman Johnson. So I see 1,600----
    Mr. Mader. Now, the other buildings, the delta is buildings 
that are being utilized. So we categorize underutilized.
    Chairman Johnson. OK.
    Mr. Mader. Underutilized would be we are not maximizing----
    Chairman Johnson. That is 1,615.
    Mr. Mader. Right. Unutilized, meaning it may be temporarily 
vacant and being held for future use by an agency; and then the 
third category, pure excess, there is no use.
    Chairman Johnson. OK. I got you.
    Mr. Mader, you are talking about, we need money to save 
money. There is a British and now Canadian concept of 
regulation: one in, one out. In business, certainly the way I 
would be looking at this is with all these--again, that is a 
lot of excess properties. That is close to 10,000 in some way, 
shape, or form, just quickly doing the math in my head. There 
is a lot of dollar value wrapped up in that, I would assume. 
Why wouldn't we utilize a goal, a discipline in the process of 
let us dispose of some, let us take those proceeds from that 
sale and utilize that for either further disposals or even for 
construction?
    Mr. Mader. Mr. Chairman, if you go back to Mr. Wise's 
testimony, he talked about CPRA, which was recommended by the 
Administration several years ago and is actually in the 
President's 2016 budget, and basically one of the key 
components of that is to do just exactly what you just 
described, and that is, retain some of the proceeds from the 
sale of excess property and then use that then to prepare, as 
Mr. Dong testified, additional properties for disposal. So it 
sort of creates a revolving fund.
    Chairman Johnson. Why not use it all rather than--in your 
testimony, you asked for $2.4 billion in increased funding for 
disposals and property management?
    Mr. Mader. Part of it is capacity. I think you get to the 
point where you can just handle so many properties in a year. 
And I also think that as the Administration proposed, we retain 
some for disposal, but the other remaining balance would go 
back into general receipts.
    Chairman Johnson. Mr. Wise, tell me, describe to me the 
greatest impediment to disposal of property. What hoops, what 
hurdles do Federal employees and managers of these things have 
to go through just to get rid of a property? How long does it 
take to get rid of one?
    Mr. Wise. Well, the length of time varies tremendously, but 
the major issues involved are, No. 1, I think as you alluded to 
in your opening statement, we really do not have a great handle 
on exactly what we have and how it is being used. The real 
property database is still a work in progress in terms of 
improving the FRPP. So that is No. 1. And I think that as a 
Federal manager in Washington or any other place, unless you 
have a really good handle on exactly what you have out there, 
its condition, and how it is being used, it is difficult to 
make the management decisions.
    The other part of it is the disposal process, again, as you 
mentioned in your opening statement, is a complicated process 
given the current legislative environment. And that is an area 
where perhaps Congress can be of assistance, and I believe the 
new amendment that was proposed is moving in that direction, 
and as Dave suggested, the CPRA legislation also--when we 
testified several years ago, we mentioned that it looked like a 
step in the right direction in terms of being able to 
consolidate properties for kind of an up-or-down decision, 
which would serve to mitigate or limit, at least, some of the 
competing stakeholder interests that also serve as challenges 
in trying to dispose of Federal real property.
    Chairman Johnson. Just briefly, not to create conflict 
between witnesses, do you basically confirm what Mr. Mader was 
talking about in terms of the underutilized, the unutilized, 
and the excess? Do you think those are pretty accurate numbers, 
or do you think that is questionable?
    Mr. Wise. Well, we prefer not to really speak in numbers at 
the moment because we are not confident enough in the FRPP data 
to take a stance other than we do not think the figures or the 
data are reliable. So all the numbers that exist are really 
numbers that are provided by the Office of Management and 
Budget and other Federal agencies. But many of our reports have 
proven time and time again that there are issues with the data 
that undermine the aggregate compilations such as what real 
property is out there, its condition, and how it is being used.
    Chairman Johnson. OK. Thank you. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Wise, earlier today David Mader said to me that one of 
his goals and one of OMB's goals is to roll into, I guess it 
would be, 2017 and the new GAO high-risk list is released, that 
among the items that would be missing would be real property 
management because we will have made sufficient progress for 
GAO to say, you have done good, there is still work to do, but 
we are going to pull them off the high-risk list.
    You have talked a little bit about this, but just walk 
through with us--and for Mr. Mader and Mr. Dong, walk through 
with us some of the most important steps that OMB, the 
Administration at large, needs to take in order to make that 
happen, and at the same time some of the steps that we have to 
take to make that happen, please.
    Mr. Wise. As you imply in your question, it is a 
multifaceted issue and a cooperative effort is needed to 
resolve these issues. We have talked regularly with Dave and 
his staff and with Norm and his staff that, there is 
considerable progress being made. There is clearly strong 
management commitment to trying to improve the situation, and 
the development of the National Strategy was an important step 
in that direction. We commend the agencies for moving in that 
direction.
    I think we still have concerns about the data, and that is 
one of the things we will be looking at closely when we do the 
next high-risk update.
    There is no question about it, there is strong commitment, 
and definitely it is a work that is being developed. And we 
have seen some demonstrations that it is beginning to look like 
the ship is moving in the right direction in terms of the data. 
But when we come back and do our next high-risk update, we will 
certainly test that and take a look and see how things play out 
when we examine the data again.
    Senator Carper. In the Navy, when we were doing the hard 
things, we would sometimes liken it to changing the course of 
an aircraft carrier. And having worked on this for almost a 
decade, this is a big carrier, but I think we are changing the 
course. And it is a cooperative endeavor.
    Part of the work that needs to be done needs to be done by 
us, and you mentioned legislation. You mentioned an amendment 
that has been offered to the National Defense Authorization 
Act, and that is offered by Angus King of Maine and yours 
truly. I was kidding him, I said, ``In listing the amendment, 
will it be Carper-King or could we maybe change it and have it 
King-Carper?'' And he said----
    Mr. Wise. That has a nice ring to it. [Laughter.]
    Senator Carper. He said, ``If I were king, there are some 
things I would do legislatively that we have tried to do 
without a whole lot of success.'' And one of those is to 
revisit the McKinney-Vento legislation, the law that has been 
around--I knew both those guys. They are both deceased now, 
colleagues, good people. They had a commitment to the least of 
these in our society and wanted to make sure that we are 
looking for folks who are homeless and to try to make sure if 
there is surplus Federal property, as you know, that it would 
be made available to homeless groups.
    You mentioned the number of properties that have been, I 
think, ceded or turned over to homeless groups, and for the 
last maybe 25 years, I think you said it is a little over 100. 
My recollection in the last year or two it is maybe one or two. 
And it is a program that is well intended, but in my own view, 
it has not worked.
    One of the pieces of legislation that you talked about that 
had been offered in the last several years is one--I think Tom 
Coburn and I offered it, and it basically said rather than 
having a program that does not seem to be moving much surplus 
property to help homeless groups, why don't we have an approach 
that says let us allow that property to be sold and then take a 
certain percentage of that, the proceeds, and to use that to 
supplement what is appropriated?
    I thought that was a pretty good idea, and the homeless 
groups said, in part, in response, ``Well, if you do that, what 
the appropriators will do is they will''--let us say we had, 
like $5 as an example, $5 from all the proceeds of all these 
sales that could go to homeless groups. The homeless groups 
say, ``Well, what the appropriators will do is reduce our 
appropriation for aid to homeless people by $5 to offset it.''
    We have something we call ``maintenance of effort'' that we 
use in other programs, educational programs, when there is 
Federal money, we say to States, ``You have to maintain 
effort.'' Maybe there is some kind of maintenance of effort 
approach here that we can use in this regard and do what Dr. 
Coburn and I and our staffs have been trying to do in this 
regard.
    Talk to us about McKinney-Vento, anybody, about how we can 
take a program that is not working--it reminds me of the Toxic 
Substances Control Act. It has been around for 38 years. The 
idea is to have the Environmental Protection Agency (EPA) look 
at highly toxic substances in this country. In 38 years, they 
have done five of them. Out of thousands they have done five. 
It does not work. And McKinney-Vento, I just do not think it 
works. And I want to be humane. We have a moral obligation to 
the least of these, folks who do not have a place to live, but 
there has got to be a better way to do this.
    Would you all talk about this for us a little bit? David, 
would you go first? Then we will hear from your colleagues 
there.
    Mr. Mader. Senator Carper, one of the things I did a year 
ago when I started this job was looking at the real property 
situation, and one of the things that we started looking at 
was, how long this process actually takes. And we took a couple 
of case studies and sort of plotted them out on a timeline. I 
think the one that go through the process the quickest was 
maybe like 9 months. Some of them took like years. It is 
interesting. There are two departments that are involved in 
this. It is HUD and the Department of Health and Human Services 
(HHS), and since they are both, Executive Branch departments, 
actually I have been interacting with both of them to see if at 
least within the existing legislative framework, are there 
things that we can do administratively to speed up the process 
between those two departments?
    But I think to the testimony from Mr. Wise, I mean, when 
you look at the results over 10 years, there is not a lot. And 
I have to think that there is a way of better categorizing the 
types of excess property so that only those that truly would be 
usable for the purpose intended by McKinney-Vento would 
actually go for that consideration and allow us to move those 
other properties quickly.
    Senator Carper. All right. Thank you.
    Norm, very quickly, any comments? And then Mr. Wise. Just 
very briefly.
    Mr. Dong. I think it is important to understand the 
original intent of McKinney-Vento, and we definitely support 
that objective. It is an important objective to determine 
whether we have any properties that have potential use for the 
homeless.
    That having been said, when you actually look at the 
results that we have seen and less than 2 percent of those 
properties actually ending up for use by the homeless, it 
suggests that the process is not very target-effective and that 
there is probably a better way of supporting this objective.
    Senator Carper. All right. Mr. Wise, very briefly.
    Mr. Wise. I agree with Norm and David. Basically there is 
such a vast number of properties that are clearly unsuitable 
for the purposes of trying to provide housing for the homeless. 
Many buildings that are being screened, as your amendment gets 
at, are in closed military facilities and cannot be used for 
that purpose, or they are in VA campuses, the same thing, or 
they are in remote areas. But they all go through this process 
of screening, Federal Register notices, and so forth. Also, the 
HUD recordkeeping is cumbersome. It just is a really awkward 
and time-consuming process, and as we have discussed without a 
whole lot of payoff.
    I think that some of the idea that you mentioned in the 
earlier legislation as well as the one that is in the current 
amendment might be steps to help mitigate some of these 
challenges in terms of coming up with a rational perspective, 
helping the homeless but yet not going through this incredible 
grind to try to get to a couple properties a year or however 
many it is.
    Senator Carper. All right. Thanks.
    Mr. Wise. So I think it is definitely an effort where 
Congress can play a very positive and important role.
    Senator Carper. Good. Well, colleagues, Mr. Chairman, there 
is stuff we can do here, and we need to do it. We have tried it 
before, not been successful, and I am encouraged here to give 
it another shot and work together.
    Thank you.
    Chairman Johnson. I think one lesson learned is sometimes 
it is very difficult to achieve one goal. But when you start 
tacking on a second and third goal, it makes it all that much 
more complicated, and there are all kinds of unintended 
consequences. So, again, well intentioned, but it is the 
multiple goals that just complicate the process, and we need to 
simplify things. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Senator Carper, I would just tell you that I would be 
willing to be able to join you in that journey and try to 
figure out a way that we can get this resolved. I know you have 
worked on this for a long time, as several Members of this 
Committee have. But this is one of the areas that we talk about 
perennially, that there are real solutions to it, it is just a 
matter of pushing over the goal line. So consider me fresh legs 
in the fourth quarter to come help join you in this process. 
Hopefully, it is the fourth quarter, finishing it out as well. 
[Laughter.]
    It is not midway through the first, right.
    Let me ask a couple questions here. Mr. Dong, let us talk 
about the Federal real property portfolio and what it is going 
to take to be able to get that data publicly available and how 
reliable that data really is at this point.
    Mr. Dong. From my position at OMB, I saw some of the 
challenges that we had in the Federal real property portfolio, 
and I see it here today. Mr. Mader has talked about some of the 
additional controls that we put in place to improve the data, 
but I think what is most critical is to actually analyze the 
data and to use that to be able to have conversations with the 
agencies in terms of what is underutilized and what is not 
utilized, and really force disposition. So really it is going 
beyond looking at the data to be able to analyze and act upon 
the data, and part of this process is some healthy transparency 
to be able to show exactly what is excess, what is 
underutilized----
    Senator Lankford. Right. Task No. 1 is that we have data, 
and the second one is that we can actually analyze it. Where 
are we on that spectrum at this point of having the data and 
then being able to analyze it and determine whether it is 
usable?
    Mr. Mader. Senator, we have been working closely with GSA 
on that, because, as you will recall, what was built years ago 
was pretty much a static database.
    Senator Lankford. Right.
    Mr. Mader. And what we are actually doing is moving now to 
actually up-to-date software over the course of the summer. So 
by the end of the summer, we are actually going to have not 
only an improved inventory but a management tool so, as Norm 
said, what agencies are going to be able to do is actually go 
in and take the data and do some analysis and say, what if this 
property, were going to age out or become excess or 
underutilized? What is that inventory then going to look like? 
What can I do with it?
    So what we are expecting--and it is part of the core tenet 
of the real property plan--is we are expecting people to 
develop a 5-year, forward-looking plan that basically says year 
over year for 5 years, what am I going to do, first, to reduce 
my real property footprint? But second of all, those buildings 
that are either right out excess or underutilized that perhaps 
should move to excess or move other tenants into that, we are 
going to be able to identify, and we are going to be receiving 
every year that update. So this is a rolling 5-year plan.
    So I think what we are going to cause to have happen is the 
kind of analysis that has not heretofore been done.
    Senator Lankford. Is there an opportunity to be able to 
have the data out there and to have individuals who may be 
interested in a Federal property be able to bid on it, express 
an interest on it, that may be fully utilized at this point, 
but it may be in a part of town that has transitioned pretty 
rapidly, now it is a heavily commercial area, and suddenly what 
was an inexpensive Federal property 30 years ago now is a very 
high-rent property now, and private industries would say if the 
Federal Government would buy that, they would pay us enough 
that we could relocate, put in a newer facility and actually be 
able to make a profit off of it.
    Mr. Mader. I would like to sort of defer to Norm because he 
actually, I think, has some good examples of just what you 
explained, Senator, and they are the responsible party for the 
actual disposal.
    Mr. Dong. We always want to get feedback from the market in 
terms of properties that we have within the Federal Government 
that may not have a lot of utility to Federal agencies but 
still reflect significant value to the private sector. I will 
give you a great example, and that is the Volpe Research Center 
up in Cambridge, Massachusetts. It is 14 acres in Kendall 
Square, which is a booming development environment, and you 
walk on to that site and it is like time stood still, because 
we have a sprawling campus of aging Federal buildings, lot of 
surface parking. The market has said to us this property has 
significant development potential.
    Through our exchange process, what we are doing is going to 
the development community saying: We do not need all 14 acres 
on this site; we will take a much smaller footprint here and 
exchange that land for construction services to build a new 
facility for the Department of Transportation (DOT) in that 
city.
    Senator Lankford. And how long does that process take?
    Mr. Dong. The process takes a few years. So what we do with 
the exchange process is to really reserve it for those 
properties that we think have the most significant development 
potential.
    Senator Lankford. OK. Mr. Mader, let me ask you a question. 
Which agency is the best and most efficient as disposal of 
whether it is property, whether it is a building or structure 
or equipment or assets, that they have a streamlined process 
that protects the taxpayer and also actually moves property out 
of excess status?
    Mr. Mader. I think, Senator, there are several. Let me 
start with the Department of Interior. Probably five----
    Senator Lankford. Is that a specific area? Is that the 
Bureau of Land Management (BLM), for instance, and some of 
their----
    Mr. Mader. I want to start with departmentwide. They 
started probably about 5 years ago dedicating a portion of 
their annual budget for the disposal of excess property, and as 
I mentioned in my earlier comment, if you have a facility that 
is now just not usable sitting in the middle of a national 
park, you really do not want to continue to spend O&M money on 
something that really ought to be demolished.
    So they have build across Interior a very detailed plan, 
across their Bureaus where they look at excess property and 
make those decisions year over year.
    In the Department of Agriculture and Forest Service, they 
are one of, I guess, about a dozen agencies that actually has 
the ability to retain some of the savings from the excess that 
they do.
    The Coast Guard within Homeland Security also has limited 
ability to do retention on some of the proceeds.
    So I think we have examples across the Federal Government 
of things that work. What we actually need to do now is sort of 
coalesce that and say if we sort of raise it up across the 
entire government, we can be much more effective, because we 
have seen these agencies demonstrate good progress.
    Senator Lankford. If I could just mention a couple things, 
if I remember correctly, Interior, Ag, and Forest Service, they 
have the ability for the administrator of the agency to be able 
to identify a piece of property, work it through the system, do 
best value for the taxpayer, and do not seem to have as 
laborious of a process as going through all the different steps 
and everything that is there. They seem to have a more 
expedited process in this.
    Mr. Mader. They are still going through all the steps, 
which adds time, but they have a much more disciplined 
management process in place, and what we are trying to do--and 
since I assumed this position, I meet monthly with the Real 
Property Council, which are the representatives, all of the 
land-holding agencies across the Federal Government, including 
defense. And, one of the things that I certainly learned coming 
into this position at OMB, when you are trying to sort of move 
the entire government, I think to Senator Carper's point, it is 
like turning an aircraft carrier or, as I prefer, herding cats. 
But I do think that we have been successful and have buy-in now 
from across the Federal Government with regard to a single 
focus on real property, developing these plans, and actually 
achieving results, because without the results, why would we 
waste the time on a plan?
    Senator Lankford. Thank you. I would recommend to this 
Committee, when we look at the legislation coming out of this, 
that we look at some of the other agencies and entities that 
are efficient in the process of disposal, gather some ideas so 
we are not having to reinvent the wheel. But I think some of 
the answers are already out there. We are just not doing a 
streamlined process for that.
    With that, I thank you.
    Chairman Johnson. Thank you, Senator Lankford. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And as you can 
see, this is an issue of management. This is not an issue of 
politics. It is not an issue of, ``gotcha.'' We are just trying 
to figure this out.
    I want to pick up where the Chairman left off, which is it 
seems like we do not really know what we have, and what we do 
know you have categorized, but yet it does not seem like we 
have--let me just move over so I can see you, Mr. Mader. What 
we do know is that we do not know everything. Is that a fair 
statement?
    Mr. Mader. I think, Senator, we have a better handle in----
    Senator Heitkamp. No, I am just saying--if I said today 
that the U.S. Government, OMB, or whatever, GSA, knows exactly 
where every piece of property, real property that the Federal 
Government owns, where it is and how it is being utilized, 
could you say yes to that?
    Mr. Mader. To 100 percent accuracy, no, ma'am.
    Senator Heitkamp. And so the sense that I get is that 
without having a broad scan, it is very hard to kind of figure 
out where the low-hanging fruit is, where the opportunities are 
maybe to build a structure or build a plan for moving forward. 
And I think we have heard some great ideas just from this panel 
and from you all, great examples of where this can work. But it 
cannot be, catch as catch can. We have to have a structure, and 
we have to have agencies--and I am not here to blame anyone, 
but we have to have agencies that are committed to this goal.
    It is interesting, Mr. Mader, that what you talked about 
were agencies that have an incentive to actually alienate the 
property and move it beyond. I want to just spend what time I 
have left talking about the ability to expand your workforce by 
engaging in public-private partnerships, whether it is with the 
local realtors, whether it is taking a look at who we could 
hire or what additional resources could be brought to bear by 
the public and by the local real estate market to solve these 
problems.
    Have you thought about--what any corporation would do that 
did not have a workforce, what would they do? They would hire 
real estate people, and they would put it on the market. They 
would do an evaluation. Why don't we do something like that so 
we could expand your opportunity and your workforce?
    Mr. Mader. Senator, we could not agree with you more. 
Looking at how to partner with other individuals or 
organizations is something that we have done. I think actually 
Mr. Dong has some very good examples of how GSA has actually 
leveraged that successfully over the last couple years.
    Senator Heitkamp. So why aren't we doing it kind of 
broadly?
    Mr. Dong. If you look at what we are doing within GSA, we 
rely heavily upon the broker community to help us with the 
disposition question as well as with our leasing transactions. 
So one of the properties that we are disposing of this year is 
the Metro West facility in Baltimore. We are leveraging broker 
resources to help us with the outreach and the marketing on 
that. So I think you are exactly right. We have all these 
resources at our disposal that we really need to embrace and 
tap into as we look at this question of disposition.
    On the larger question of leasing, we rely heavily upon the 
brokers to help us with the different aspects of those 
transactions. Whether it is pre-award or post-award, we have a 
new leasing contract that we will be awarding sometime in early 
2016 that actually reduces the administrative burden and makes 
it easier for the government to tap into that resources.
    Senator Heitkamp. Do you think it is fair to say that kind 
of the inability to do as-is transactions limits the ability to 
alienate property? This idea that things have to come up to 
code, I mean, throughout the environment, we see tons of 
dilapidated properties being sold at a much reduced price, but 
two good things happen: No. 1, they get improved; and, No. 2, 
they are added back to the local property tax rolls.
    And so where within that category can we be a little more 
creative?
    Mr. Dong. I think there are a number of different 
challenges that we have talked about in terms of the challenges 
that agencies face as they look to move properties off the 
books. I think what the largest one is is that whole notion of 
retention of proceeds where agencies have to incur costs, but 
they do not have the ability to recoup those cost, so there 
really has been no economic benefit for many agencies to move 
these properties off the books. So that is why I think having 
some limited retention of proceeds where agencies can recoup 
their costs will show dramatic results in terms of the activity 
that we see.
    Senator Heitkamp. And this might be just far-fetched and 
far afield, but as James and I have said, you have two new eyes 
on this issue very committed. But, there is a ton of folks who 
could do walk-throughs and actually evaluate. One of the 
concerns that I have is that if you are an agency head and you 
have an asset already, chances are you want to hang on to that 
asset, right? Especially if somebody else is paying the 
overhead.
    And so what are we doing to actually investigate and 
inspect those facilities? I was thinking, well, you get a bunch 
of college kids in the summer who may be involved in business, 
and you could say, ``Do a walk-through. Here is your ticket. 
Walk through, tell us whether that space is actually being 
utilized the way the agency head or the way the division 
director is telling us it is being utilized.'' And I think that 
is another concern I have, that we are understating the 
underutilization of Federal property.
    Mr. Dong. There is a point in our history where GSA 
actually used to do exactly that, and that function was 
established by Executive Order (EO). It really charged GSA with 
going into those Federal properties and kind of walking the 
floors and really kind of coming up with an independent 
assessment of how that facility was being used.
    Looking at it a different way, coming back to the data in 
the Federal Real Property Portfolio and the agency Reduce the 
Footprint plans that will be submitted this summer, we see that 
as an opportunity to go through the list one by one of assets 
that have been labeled as underutilized or unutilized and 
really force more meaningful disposition on what our plan is 
for each of those assets.
    Senator Heitkamp. With my little remaining time, Senator 
Lankford has suggested taking a look at agencies. I also think 
it would be interesting to take a look at States, because 
States obviously also have real property. There may be a 
management structure that they have that actually may 
demonstrate or look at best practices, and so it would be 
interesting to get any feedback, maybe if I have a chance to 
ask additional questions, to get additional feedback on what 
State you think as a governmental entity is actually managing 
their real property in a way that is best practices.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Heitkamp.
    I do not want to let this moment pass. Mr. Dong, you said 
the GSA used to do that. Why did they stop? What happened? Is 
somebody else doing it now instead?
    Mr. Dong. There have been a series of Executive Orders over 
time that really speak to this issue, and the most recent 
Executive Order does not cover this whole function that we had 
described. But previous Executive Orders did, in fact, spell 
that out.
    Chairman Johnson. So is there something preventing you from 
doing those walk-throughs, assessing the property? I mean, 
anybody can quickly answer this? Again, this is important 
because that is going to be the baseline for getting the 
information that we are going to need.
    Mr. Dong. We see ourselves as supporting OMB on all things 
real property and really kind of being the operational 
extension of the Office of Management and Budget to support 
OMB's real property priorities. And we would very much want to 
partner with OMB to really make sure that we are leaning 
forward and we are being assertive on this question to make 
sure that if we have properties that are labeled as 
underutilized or unutilized, we are doing the proper due 
diligence to move them off the books.
    Chairman Johnson. Again, you stopped walking through 
properties. Mr. Mader, is OMB doing it? Mr. Wise, do you know 
who is doing it? Or is it not being done?
    Mr. Mader. I was not aware that we had actually stopped 
doing it.
    Chairman Johnson. OK. Well, we have to start that again.
    It is now Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    Just to follow-up on the Chairman's question, as I 
understand it, Mr. Dong, you said there was an Executive Order 
that had prompted this sort of walking through the properties 
to do the sort of personal understanding and inventory and that 
the Executive Orders post that changed. Is that true?
    Mr. Dong. Yes, the Executive Order--they changed over time 
in terms of what the focus was for this function, and the 
most----
    Senator Ayotte. So what is the focus now?
    Mr. Dong. Things like the Federal Real Property Council and 
having that manage the government-wide program.
    Senator Ayotte. So if it was a reflection of an Executive 
Order, I mean, do you need legislation to say you should do 
this? Because we can do that in this Committee. It just strikes 
me as such a common-sense step that even if you did not have an 
Executive Order that this would be something that would be a 
valuable tool in terms of trying to tackle the properties that 
are underutilized and obviously saving money for the Federal 
Government. So I think that is what the Chairman was trying to 
get at. Do you need something from us, do you need something 
from the President, to undertake what you previously did that 
seemed to be a good tool?
    Mr. Mader. Senator, I do not think we need legislation to 
do what the Executive Branch could do.
    Senator Ayotte. So will you commit to doing that for us?
    Mr. Mader. I will commit that--when we get the plans in 
July, we are going to have the draft plans, and then I think we 
are going to be looking at an inventory now of potential 
disposals that heretofore we did not have. So, if this is 
something that will help us move that disposal process forward, 
we will consult with GSA and see if it makes sense to 
reinstitute that policy.
    Senator Ayotte. OK, great. So as I understand the testimony 
that we have received today, the goal for this year is a 
reduction of space by 3 million square feet. Is that right?
    Mr. Dong. We have properties in our disposition pipeline 
that are about 3 million square feet. That is our goal to 
reduce for this fiscal year, and our goal is to expand upon 
that for next year.
    Senator Ayotte. Right. Because as I look at this, just 
thinking about the goal of 3 million square feet, I understand 
the portfolio is currently around 377 million square feet. Is 
that true?
    Mr. Dong. That is the portfolio that GSA manages.
    Senator Ayotte. Yes. So that means that we are looking at 
this year a reduction of less than one percent. It is actually 
0.007 percent. So I know this is an improvement over past 
years, but aren't we aiming too low?
    Mr. Dong. I would say that the numbers are fairly modest, 
but I think everyone recognizes that we need to be far more 
aggressive in terms of looking at the assets in our portfolio, 
really asking that question of highest and best use, and 
whether it is through disposition or exchange or outlease, 
being far more aggressive in terms of taking those properties 
that do not have much use to the Federal Government and 
leveraging the value of that, working with the private sector.
    Senator Ayotte. What do you think has been the biggest 
barrier? Has it been a cultural barrier that, for example, 
people work in a certain building, so there is sort of a 
reticence to want to eliminate it? Or has it been us? What 
would you describe as the biggest barrier that we cannot move 
forward on better culling out what we really need versus things 
we hold that we do not need?
    Mr. Mader. I think, Senator, some of it is cultural, some 
of it is, ``I am used to commuting to this particular building, 
and now you are going to disrupt my commuting pattern.'' But I 
think when you--and I talk to heads of agencies, Deputy 
Secretaries, and they look at their mission needs, and they 
look at their overhead costs, and they say, ``I actually need 
to reduce my overhead and redirect those dollars into my 
mission.''
    I am seeing over the last couple years much more interest 
on the part of executives in various agencies to take on this 
issue. OMB 2 years ago actually developed a set of benchmarks 
that we give to each of the departments now that basically says 
here is how many square feet you have, here is your rent, 
average rent per square foot, here is your average occupancy 
per square foot, and here is your O&M cost. And not only do we 
do it at the department level, but we also break it down by 
their bureaus so they are able to look--let us say within 
Commerce, they could look at their 13 bureaus and start asking 
a lot of hard questions among themselves, why does this 
particular bureau have this kind of cost structure and this one 
does not? Are their missions that far apart?
    So I am seeing much more attention to this issue than I 
have ever seen before.
    Senator Ayotte. Could you help us understand, Mr. Mader, 
what agencies have--or perhaps Mr. Dong, depending on who is 
the most appropriate one to answer. But what agencies have the 
most excess property? And what agencies are really standing out 
as someone we can look to, an agency that is doing this well in 
terms of being aggressive on disposing property that it does 
not need?
    Mr. Dong. We can provide you with additional information in 
terms of the volume of excess properties and those agencies 
that have the highest volumes. You asked the question about 
which agencies are doing well, and I wanted to come back to two 
examples. One is the Coast Guard. The other is the Forest 
Service. If we look at both of those agencies, they have some 
ability to retain the proceeds, which means that they are able 
to recoup the up-front costs of identifying excess properties 
and moving them off the rolls. And we think that is critical 
because there has to be some economic incentive for agencies to 
move these off the books, and what you are seeing is, with the 
Coast Guard and with the Forest Service, far more significant 
activity among those two agencies compared to other agencies in 
the Federal Government.
    Senator Ayotte. It makes sense. If they can invest in a new 
cutter based on property that they do not otherwise need, then 
that certainly provides an incentive to get to their core 
mission. And if we continue to do that and obviously take a 
portion of it and apply it to helping the fiscal state of the 
country overall, but then allow them to keep a portion of it, 
then it seems like a win-win on two fronts. And then we get the 
savings going forward as well, of course.
    Mr. Mader. Senator, I think the other challenge besides 
sort of the cultural issue and the management attention 
actually is the resources that GSA, as Mr. Dong testify--in the 
current fiscal year, they had, I guess, $70 million?
    Mr. Dong. Consolidation, yes.
    Mr. Mader. For consolidations. In the President's budget in 
2016, we asked for $200 million. So obviously we can do a lot 
more with $200 million than we can do with $70 million, and 
some of the conversations that are going on now in 2016 
actually would make that 70 go to zero, which would, quite 
candidly, sort of grind the program to a halt.
    Senator Ayotte. I appreciate that, and also not to 
relitigate some of the issues that GSA has had, I think that 
certainly we want to make sure that you have the resources to 
do this, but that GSA is obviously maximizing the use of the 
resources it does have. So thank you all for being here.
    Chairman Johnson. Thank you, Senator Ayotte.
    Again, if we actually had the information in terms of how 
much property is available for disposal, what the value of that 
would be, then we can actually find out, if we dispose of it, 
that would be the amount of money coming in, and we could 
reallocate it that way. But, again, we do not have the 
information.
    Also, Senator Ayotte, it is worse than what you were 
talking about. In earlier testimony you might have missed, 
there is about 2.5 billion square feet on Federal property. The 
377 million is just with the GSA. So three divided by 2,500 
million is, literally one-tenth of one percent is what we are 
disposing of. So it is a pretty modest--yes, it is a little 
bit, teeny-weeny. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. I appreciate you 
all being here today, and, David, is it good to see you. Thanks 
for your service when I was at OMB and your continued focus on 
this issue. I think you need help, as you know, and I think you 
need legislation. And I think it is appropriate you are here 
today talking about what you are doing. That is great. But I 
think you are constrained by not having the legislative tools 
that you need. So I guess I have just answered one of the 
questions I was going to ask you. I should back up.
    First of all, we have heard today about the amount of 
excess property, and it is significant. There are different 
numbers out there, but taxpayers are amazed by the fact that 
the Federal Government, the biggest landowner in America, still 
has about 78,000 Federal properties that are considered to be 
vacant or underutilized, costing taxpayers about $1.6 billion 
every year for maintenance. And, understandably, they want us 
to get at this.
    And so I appreciate again what the Administration is trying 
to do within the constraints of the law, but I think there is a 
lot more that can be done. GAO's high-risk list includes real 
property management. I know GAO is here today, and I am sure, 
David Wise, that you have talked about this. But they focus on 
a few things: one, the continued excess/underutilized vacant 
properties, heavy reliance on leasing where ownership would be 
more cost-effective, and then the challenges in protecting 
facilities, unreliable real property data, and the lengthy and 
costly disposal process for unneeded property.
    I was a cosponsor of the legislation in 2012 on this and an 
original cosponsor in 2013 with Senator Carper, who has since 
left us here at the Committee, but I know he has a strong 
interest in this still. And what we tried to do in that 
legislation was, quite frankly, to provide for the kind of 
legislative help that you need.
    GAO has said in its most recent look at the National 
Strategy we have talked about today, they wonder whether it 
gets at the core challenges of disposing of excess property, 
the local interests, such as the McKinney-Vento Act, historical 
and environmental challenges. That is what we tried to get at 
with our legislation, and so I do think that, as your National 
Strategy has said, ``Targeted legislative relief for the 
current governmentwide disposal process could be developed and 
implemented to assess . . . benefits to real property 
management.'' Relief could include ``allowing disposal agencies 
to recapture their disposal costs and some aspects of the 
public benefit conveyance process.''
    So these are the issues that I think need to be addressed 
with legislation. So if you are a Federal agency, you are told, 
``Focus on this disposal. And, by the way, you are going to get 
no benefit out of it. It is going to go to Treasury.'' And I 
think there is a disincentive there, and I think we need to 
restructure that, and we need to deal, again, with some of 
these barriers that GAO has identified and that you all have 
identified, David.
    So I guess my question to you would be: Do you agree that 
we need Federal legislation here? And, specifically, what would 
be the three or four things that you would look to for Federal 
legislation to help you to accomplish what you are trying to 
do?
    Mr. Mader. Senator, we would agree wholeheartedly, and 
certainly I think I speak for Mr. Dong. As you know, the 
Administration for the last several years has been proposing 
legislation, the Civilian Property Realignment Act, which would 
basically allow us to create a process that would sort of look 
at the entire government portfolio, identify those properties, 
regardless of Federal agency, put them together, put them for 
an up-or-down vote, dispose of them, take a portion of those 
dollars that we get from the disposal, and then plow them back 
in. And, I know there are other legislative proposals that have 
similar kinds of approaches, and I think----
    Senator Portman. Just for a second, David, our legislation 
had 80 percent, so it was 80 percent of net proceeds of 
property sales deposited in the Treasury for deficit reduction 
and not more than 18 percent allocated to the Federal agency. 
Is that about right?
    Mr. Mader. I mean, I think, Senator, I think there is a 
limit to how much we can do in any given year. I think we have 
the responsibility to give some back to the general fund. 
Whether it is 80/20 or 70/30, I think we could sort of look at 
what makes sense year over year, because I do think at a point 
in time we just would be out of capacity to handle this kind of 
volume. But retain savings to plow back into a fund is 
critical. You mentioned streamlining the public conveyance 
process. That is important. We have talked about that earlier 
today in the hearing. It takes an inordinate amount of time, 
and when you look at the 10-year results, we have not actually 
moved that many properties over to homeless use. So I think 
those two elements are critical to legislation going forward.
    Senator Portman. We do have a number of OMB changes in the 
legislation, as you know, including having OMB produce an 
annual scorecard tracking the progress of each agency in 
reaching its property savings targets. Do you think that is 
appropriate?
    Mr. Mader. Oh, I do, absolutely. As I mentioned, we 
actually started last year an annual process. In fact, we are 
in the midst of the process this summer going out. We sit with 
the Deputy Director for Mortgage market, and others from OMB, 
sit with each of the Deputy Secretaries and review various both 
mission programs as well as support programs. Real property is 
always on the agenda with regard to how well they are doing in 
reducing the footprint, and now as we move to the new strategy, 
actually reducing the footprint.
    Senator Portman. Well, having an expedited process for 
disposal of the properties is certainly one of the goals of the 
legislation. So we have not reintroduced the bill, as you know, 
partly because we are waiting to see how the National Strategy 
unfolds. But we will be following up with some questions for 
the record to try to get you guys to give us your input. We 
would like to work with you. We would like to work with Senator 
Carper. Again, there were a few different approaches. The House 
passed an approach in 2012 that Senator Brown took up, and then 
Senator Carper and I had a different approach that did not have 
a Defense Base Closure and Realignment Commission (BRAC)-like 
system in place. But we are interested in moving forward given 
the new situation, and I think you have found, frankly, what 
your limits are without having legislative help. And we need to 
codify somewhat what is going on I think for the purposes of 
the future, but also to provide you better tools to be able to 
complete the mission that you have started to undertake. So 
thank you all for your testimony.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Portman.
    There is no doubt about it, like Senator Heitkamp was 
saying. This is not a partisan issue. This is a management 
issue. And I think there are a number of things we can do. My 
suggestion always is take a step-by-step approach. Let us take 
the little elements. Maybe we cannot do some big comprehensive 
reform, but let us take a look at the very common-sense things 
we have to do. Let us start passing that. Let us try and get 
things passed through this Committee and reported out 
unanimously, and let us start making some improvements here.
    So, again, I just want to thank all the witnesses for the 
time you took for your testimony. We will work very closely 
with you to provide those types of reforms, report out a piece 
of legislation that will actually work. And, with that, I think 
the hearing record will remain open for 15 days----
    Senator Carper. Mr. Chairman, are we done?
    Chairman Johnson. Yes, I was going to close it out.
    Senator Carper. Can I have another round?
    Chairman Johnson. Sure.
    Senator Carper. Thank you.
    Chairman Johnson. We do have votes.
    Senator Carper. Thank you for letting me have a second 
round, Mr. Chairman.
    The Chairman likes to talk sometimes in terms of like a 30-
year horizon which I think is actually very helpful. We used to 
talk around here about one-year horizons, then 5, now 10. He 
talks about 30-year horizons. And one of the projects, real 
property projects that I think of in terms of a 30-year horizon 
is the St. Elizabeths campus for the Department of Homeland 
Security. Could one of you speak to that? I do not know if it 
would be Mr. Mader or Mr. Dong. Can one of you just speak to 
that, please, and tell us how that might make sense? I would 
say as a preface, I have talked, I think, to every previous 
Secretary of Homeland Security, and I came here not thinking 
St. E's made a whole lot of sense. I said, ``Why would we do 
that?'' Every one of them said to me, ``No, it does make sense. 
And it makes dollars and cents, and here is why.'' But just 
talk to us about it along a horizon of 30 years. Why does it 
make sense?
    Mr. Dong. Sure. If you look at where DHS is right now, they 
are in over 45 different leased locations scattered across the 
National Capital Region, and you can think about what we are 
paying in terms of annual lease payments.
    As we have done the math and as we have put together an 
aggressive plan, we are seeing that we can save over $4 billion 
over the next 30 years by moving out of all of those expensive 
leases into a single owned facility on the St. Elizabeths 
campus.
    Senator Carper. Explain how that happens. Four billion, 
that is a lot of money.
    Mr. Dong. Yes, and, again, you think about the annual costs 
that we are spending in terms of leases in dozens and dozens of 
leases across the National Capital Region, and what we are 
seeing is that by investing the money up front to be able to 
build a consolidated facility for DHS at St. Elizabeths, we are 
going to be able to save a significant amount of money in terms 
of lease avoidance costs.
    Senator Carper. All right. Mr. Mader, do you want to add 
anything to that?
    Mr. Mader. What is interesting we agree with what David 
Wise has testified. We do think that, we have to many 
facilities, leased facilities. We would like to consolidate, 
especially in major cities. But, again, and I do not want to 
sound like a broken record--we have a Federal Building Fund 
that was established, I do not know, 50 years ago for the 
purpose of building and maintaining, and yet, we do not seem 
able to leverage what we already have in an existing 
flexibility.
    Senator Carper. OK. In the budget resolution, we give the 
Appropriations Subcommittees direction and basically say this 
is how much money you are going to have to work with. There is 
an Appropriations Subcommittee in the Senate led by Senators 
Boozman and Coons, and I think it is Federal Financial 
Management--what is it? It includes GSA. There is a name to it, 
but I cannot remember it. I just remember the leadership. I met 
with Chairman Boozman, and he and Senator Coons, they have a 
tough job given the allocation that they have been given from 
the Budget Committee.
    If, at the end of the day, there is some additional money 
that can be directed--and a final compromise on the budget, can 
be directed to that Subcommittee for investments, what are some 
areas that should be prioritized, please?
    Mr. Dong. We would be happy to work with the Committee in 
terms of following up to identify those priorities, but I think 
it comes back to the larger point that you are making in terms 
of the importance of investing in our Federal buildings 
portfolio and recognizing that this overdependence on leasing 
that we have, because we are not investing in our Federal 
buildings portfolio, is costing us money.
    Senator Carper. OK. Mr. Mader, do you want to add anything 
to that?
    Mr. Mader. No. I concur.
    Senator Carper. OK. The last thing I will ask is this--I 
asked this question earlier, and I want to ask it one more time 
for our takeaway. I think sometimes repetition is good. Tell us 
very directly what we need to do, what we on this Committee and 
we in the Congress need to do to actually turn the course of 
this aircraft carrier, turn this carrier more quickly.
    Mr. Mader. I think it comes back to the legislative actions 
that we have talked about, whether it is public conveyance, 
McKinney-Vento, retained savings, maybe some kind of commission 
structure. I think that is key, and I also think you having 
hearings every year and holding us accountable for the results 
based on the actions and the legislation that you pass.
    Senator Carper. Mr. Dong. By the way, your name, I am 
intrigued by your name. Are you of Vietnamese descent?
    Mr. Dong. No. Actually, I am half Chinese and half Danish.
    Senator Carper. Well, that is an interesting combination. 
OK. Same question--not the same one, not about your ancestry, 
but, again, just very directly: What do we need to do?
    Mr. Dong. I think oversight is important in terms of 
holding the administration accountable for doing what we are 
saying we are planning to do. We have talked about some of the 
challenges and the obstacles that we face in the disposition 
process, and right now we are working hard and using a lot of 
brute force and elbow grease to move properties off the books. 
The whole notion of retention of proceeds, as I explained 
before, I think is critical. We are not asking agencies to make 
a windfall, but to at least allow them to recoup the costs of 
moving properties off the books.
    Senator Carper. OK. Thanks.
    And, briefly, Mr. Wise, a closing word. What do we need to 
do?
    Mr. Wise. I pretty much agree with what Dave and Norm said 
in the sense that there are certain actions the Administration 
can take, but there are some things outside their ability to 
control. And where the Congress can be helpful and be a 
positive influence is helping in the disposal process and the 
mitigation or the elimination possibly of the competing 
stakeholder interests that have a large influence on the 
disposal process. And that is where I think the legislation can 
really be a driving force to helping to expedite the disposal 
process and help rationalize the Federal portfolio.
    Senator Carper. A great note to end on.
    Mr. Chairman, it was a good hearing, and we have, I think, 
a pretty clear path here, and let us see if we cannot proceed. 
Thank you.
    Chairman Johnson. Well, thank you, Senator Carper. Again, I 
am certainly committed to working with you and the gentlemen 
here, our witnesses, to bring some reform to this issue.
    Again, I want to thank the witnesses. The hearing record 
will remain open for 15 days, until July 1 at 5 p.m., for the 
submission of statements and questions for the record. This 
hearing is adjourned.
    [Whereupon, at 11:28 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
